IN THE
SUPREME COURT OF THE UNITED STATES
JONATHAN HUEY LAWRENCE,
Petitioner,
vs.
STATE OF FLORIDA,
Respondent.
APPENDIX TO
PETITION FOR WRIT OF CERTIORARI
TO THE SUPREME COURT OF THE UNITED STATES
STATE OF FLORIDA

APPENDIX

DOCUMENT

A

Opinion of the Florida Supreme Court
Rendered on October 29, 2020

B

Order of the Florida Supreme Court
Denying Motion for Rehearing
Rendered on December 31, 2020

Lawrence v. State, 308 So.3d 544 (2020)

APPENDIX A 1

45 Fla. L. Weekly S277

308 So.3d 544
Supreme Court of Florida.
Jonathan Huey LAWRENCE, Appellant,
v.
STATE of Florida, Appellee.
No. SC18-2061
|
October 29, 2020
Synopsis
Background: Following affirmance of first-degree
murder conviction and death sentence, 846 So. 2d
440, and denial of initial motion for postconviction
relief, 969 So. 2d 294, defendant filed successive
postconviction motion. The Circuit Court granted
motion, vacating death sentence, and ordered a
new penalty proceeding. In subsequent penalty
proceedings, the Circuit Court, 1st Judicial Circuit,
Santa Rosa County, David Rimmer, J., again imposed
death penalty.

The Supreme Court held that State constitutional
conformity
clause
precludes
constitutional
comparative proportionality review of death sentences,
receding from Yacob v. State, 136 So. 3d 539 and
Rogers v. State, 285 So. 3d 872.

Attorneys and Law Firms
Andy Thomas, Public Defender, and Barbara J.
Busharis, Assistant Public Defender, Second Judicial
Circuit, Tallahassee, Florida, for Appellant
Ashley Moody, Attorney General, and Charmaine
M. Millsaps, Senior Assistant Attorney General,
Tallahassee, Florida, for Appellee
Opinion
PER CURIAM.
Jonathan Huey Lawrence appeals his sentence of death
for the 1998 first-degree murder of Jennifer Robinson
that was imposed in a 2018 resentencing proceeding.
We have jurisdiction, see art. V, § 3(b)(1), Fla. Const.,
and affirm. As is more fully explained below, although
Lawrence's original death sentence was determined
to be proportional based on substantially the same
evidence presented during the de novo resentencing
proceeding at issue, Lawrence argues on appeal that
his sentence of death is not proportional. The State
argues that this Court is legally prohibited, by the
Florida Constitution, from reviewing death sentences
for comparative proportionality when that review is not
authorized by statute. We agree with the State and hold
that the conformity clause of article I, section 17 of the
Florida Constitution forbids this Court from analyzing
death sentences for comparative proportionality in the
absence of a statute establishing that review.

Affirmed.
Labarga, J., filed dissenting opinion.
Procedural
Posture(s):
Appellate
Review;
Sentencing or Penalty Phase Motion or Objection.
West Codenotes
Held Unconstitutional
Fla. R. App. P. 9.142
*545 An Appeal from the Circuit Court in and for
Santa Rosa County, David Rimmer, Judge - Case No.
571998CF000270XXAXMX

BACKGROUND
In 2000, Lawrence pleaded guilty to principal to the
first-degree murder of Robinson, conspiracy to commit
first-degree murder, giving alcoholic beverages to
*546 a person under twenty-one, and abuse of a
dead human corpse, and he was sentenced to death
for Robinson's murder. Lawrence v. State, 846 So. 2d
440, 442 (Fla. 2003). Robinson's murder followed two
separate criminal episodes in which Lawrence and his
codefendant murdered one individual and attempted
to murder another individual. See id. at 443 n.3. We
detailed the facts of Robinson's murder on direct
appeal, explaining that Lawrence and his codefendant,
who was also convicted of first-degree murder and
sentenced to death for Robinson's murder, carried out

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

Lawrence v. State, 308 So.3d 544 (2020)

APPENDIX A 2

45 Fla. L. Weekly S277

their crimes against Robinson in accordance with notes
in Lawrence's handwriting:
Lawrence's codefendant, Jeremiah Martel Rodgers,
picked up eighteen-year-old Jennifer Robinson
from her mother's home on May 7, 1998.
Rodgers and Robinson met Lawrence, and all three
drove in Lawrence's truck to a secluded area in
the woods. After imbibing alcoholic beverages,
Robinson had sex with Rodgers and then with
Lawrence. At some point thereafter, Rodgers
shot Robinson in the back of the head using
Lawrence's Lorcin .380 handgun. The gunshot
rendered Robinson instantly unconscious, and she
died minutes later. Lawrence and Rodgers loaded
Robinson's body into Lawrence's truck and drove
further into the woods. Lawrence made an incision
into Robinson's leg and removed her calf muscle.
Rodgers took Polaroid pictures of the body,
including a picture of Lawrence's hand holding
Robinson's foot. Lawrence and Rodgers buried
Robinson at that site.
Investigators traced Robinson's disappearance to
Lawrence and Rodgers. When confronted by
Investigator Todd Hand, Lawrence denied knowing
Robinson and consented to Hand's request to
search Lawrence's trailer and truck. After recovering
multiple notes written by Lawrence and Polaroid
photographs depicting Robinson post-mortem,
Hand arrested Lawrence. One page of the recovered
notes states in part: “get her very drunk,” “yell
in her ears to check consicouse [sic],” “even slap
hard,” “[r]ape many, many, many times,” “ ‘slice and
dice,’ [d]isect [sic] completely,” “bag up eatabile
[sic] meats,” and “bag remains and bury and burn.”
Another page of notes provides a list of items and
tasks, some of which had been checked off or
scribbled out. That list includes “coolers of ice =
for new meat,” strawberry wine, everclear alcohol,
scalpels, Polaroid film, and “.380 or-and bowies
[knives].” Other items located by investigators
during their search of Lawrence's trailer and truck
included a box for a Lorcin .380 handgun; empty
Polaroid film packages; a piece of human tissue
in Lawrence's freezer; a blue and white ice chest;
an empty plastic ice bag; disposable gloves; a
scrapbook; and several books, including an anatomy
book [ ]titled The Incredible Machine, within which
had been marked female anatomy pages and pen

lines drawn at the calf section of a leg. Lawrence
subsequently confessed to his involvement, after
waiving his Miranda [v. Arizona, 384 U.S. 436, 86
S.Ct. 1602, 16 L.Ed.2d 694 (1966)] rights, and led
detectives to Robinson's body.
Id. at 442-43 (footnotes omitted). On direct appeal,
Lawrence appealed only his sentence of death, and
we affirmed, id. at 446, including on the basis
that Lawrence's death sentence was proportionate in
comparison to other cases in which we have upheld the
imposition of the death penalty, id. at 452-55.
We subsequently affirmed the denial of Lawrence's
initial postconviction motion and denied his habeas
petition. Lawrence v. State, 969 So. 2d 294, 315 (Fla.
2007).
*547 Thereafter, the trial court granted Lawrence's
successive postconviction motion, vacated his death
sentence, and ordered a new penalty phase proceeding
pursuant to Hurst v. State, 202 So. 3d 40 (Fla. 2016),
receded from by State v. Poole, 297 So. 3d 487 (Fla.
2020).
Before the second penalty-phase proceeding, which is
at issue here, began, Lawrence sent a handwritten letter
to the trial court requesting that his death sentence be
“reinstated,” stating in pertinent part:

[M]ay I request to please have
my death sentence reinstated?
I've never wanted a new trial or
anything to do with the Hurst
hearing/ruleing [sic] and have
been trying for ten years to have
my last attorney ... drop all my
appeals but he has completely
ignored me and refused any
form of communications with
me until telling me my new
attorney's names and that I'm
to go ... for a new sentencing
that I do not want. I'm guilty
of all my charges and deserve
my death sentence. I've had no
intention of putting the families,
friends and loved ones of the

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

Lawrence v. State, 308 So.3d 544 (2020)

APPENDIX A 3

45 Fla. L. Weekly S277

innocent people I deliberately
helped murder through all these
20 long years of grief, suffering
and loss, to have to indure [sic]
more. They deserve justice and
every amount of peace my death
sentence and conclusion might
give them.

Through appointed counsel, Lawrence subsequently
moved to waive his rights to a penalty-phase jury,
to present mitigation, and to challenge the State's
evidence. After inquiring of Lawrence and hearing
testimony from a doctor who had evaluated Lawrence
and found him competent, the trial court found
Lawrence's waivers to be knowing, intelligent, and
voluntary. The trial court ordered a presentence
investigation and appointed special counsel pursuant
to Marquardt v. State, 156 So. 3d 464 (Fla. 2015), to
assist it in considering available mitigation.
Thereafter, following the State's penalty-phase
presentation and special counsel's presentation at a
subsequent hearing that also served as a Spencer 1
hearing, the trial court sentenced Lawrence to death,
finding that the aggravating circumstances 2 “greatly
outweigh” the statutory and nonstatutory mitigating
circumstances. 3 In sentencing Lawrence to death, the
trial court further found as follows:
The Court has carefully considered and weighed
the aggravating and mitigating circumstances found
to exist in this penalty phase. The State has
proven *548 beyond and to the exclusion of
every reasonable doubt the existence of two serious
aggravators. The prior violent felony aggravator
was given great weight due to the fact that both
prior offenses were committed prior to the murder
of Jennifer Robinson, were committed with the
co-defendant, Rodgers, and involved murder and
attempted murder. Both of these prior crimes were
senselessly violent and without any moral or legal
justification. They are indicative of the same total
disregard for human life evidenced in this case.
In each case, Lawrence and Rodgers killed or
attempted to kill another human being. In addition,
the cold, calculated, and premeditated aggravator

was given great weight due to Lawrence's significant
involvement in the planning, preparation, and
execution of the murder.
The Court finds that these two aggravators
greatly outweigh all of the statutory and nonstatutory mitigating circumstances, inclusive of the
significant mental mitigation.

ANALYSIS
On appeal, Lawrence argues that his death sentence is
disproportionate in comparison to other cases in which
the sentence of death has been imposed. The State
urges us to recede from precedent holding that we must
review the comparative proportionality of every death
sentence to “ensure uniformity of sentencing in death
penalty proceedings,” Rogers v. State, 285 So. 3d 872,
891 (Fla. 2019), by reserving the death penalty “for
only the most aggravated and least mitigated of firstdegree murders.” Id. at 892 (quoting Urbin v. State,
714 So. 2d 411, 416 (Fla. 1998)); see also Fla. R.
App. P. 9.142(a)(5) (providing that the Court shall
review proportionality on direct appeal whether or
not the issue is presented by the parties). In support
of its argument, the State contends that comparative
proportionality review violates the conformity clause
of article I, section 17 of the Florida Constitution.
We agree with the State and write to explain why
our precedent is erroneous and must yield to our
constitution.

The Florida Constitution Precludes
Comparative Proportionality Review
The conformity clause of article I, section 17
of the Florida Constitution provides that “[t]he
prohibition against cruel or unusual punishment, and
the prohibition against cruel and unusual punishment,
shall be construed in conformity with decisions of
the United States Supreme Court which interpret
the prohibition against cruel and unusual punishment
provided in the Eighth Amendment to the United
States Constitution.” The Supreme Court has held that
comparative proportionality review of death sentences
is not required by the Eighth Amendment. Pulley v.
Harris, 465 U.S. 37, 50-51, 104 S.Ct. 871, 79 L.Ed.2d

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

Lawrence v. State, 308 So.3d 544 (2020)

APPENDIX A 4

45 Fla. L. Weekly S277

29 (1984) (“There is ... no basis [in Supreme Court
case law] for holding that comparative proportionality
review by an appellate court is required in every case in
which the death penalty is imposed and the defendant
requests it.”).
In Yacob v. State, 136 So. 3d 539, 546-49 (Fla.
2014), this Court addressed whether our statelaw precedent requiring comparative proportionality
review survived the addition of the conformity clause
to article I, section 17 of the Florida Constitution
in 2002. In holding that it did, Yacob sourced the
requirement for comparative proportionality review
from three other provisions of Florida law outside
of article I, section 17. Specifically, Yacob held
that comparative proportionality review “flows from
Florida's capital punishment statute—section 921.141,
Florida Statutes,” *549 Yacob, 136 So. 3d at 546,
from the due process clause of article I, section 9 of
the Florida Constitution, id. at 549, and from article
V, section 3(b)(1) of the Florida Constitution, which
grants this Court mandatory, exclusive jurisdiction
over appeals from final judgments of trial courts
imposing the death penalty, id. at 547. None of
these provisions, however, requires the comparative
proportionality review that we have held to be required
and codified in our procedural rules as within the scope
of our appellate review. See Fla. R. App. P. 9.142(a)(5).
Comparative proportionality review is not referenced
anywhere in the text of section 921.141, Florida
Statutes (2019). Yet, Yacob read this requirement
into the portion of the statute which provides that
“[t]he judgment of conviction and sentence of death
shall be subject to automatic review” by this Court
“in accordance with rules adopted by” this Court. §
921.141(5), Fla. Stat. (2019); See Yacob, 136 So. 3d
at 546 (quoting then-subsection (4) of the statute for
this proposition). In support of this conclusion, Yacob
reasoned that this Court had previously “interpreted
section 921.141 as including proportionality review of
death sentences” in State v. Dixon, 283 So. 2d 1, 10
(Fla. 1973). Yacob, 136 So. 3d at 546. However, Dixon
did no such thing. Rather, as Justice Canady explained
in dissenting from this portion of the Yacob decision,
Dixon—which upheld Florida's capital punishment
statute against a constitutional challenge—
contemplated that in any case where “a defendant
is sentenced to die, this Court can review that

case in light of the other decisions [imposing
sentences of death] and determine whether or not
the punishment is too great.” 283 So. 2d at 10.
The reasoning of Dixon, however, does not in any
way tie this comparative review to a provision of
section 921.141. Instead, the comparative review
envisioned by Dixon can only reasonably be
understood as a judicial-created means to ensure
that the statute would be implemented in a way that
would avoid the constitutional concerns articulated
in Furman v. Georgia, 408 U.S. 238, 92 S. Ct.
2726, 33 L. Ed. 2d 346 (1972), concerns which
were rooted in the prohibition on cruel and unusual
punishments. The Dixon court understood that
such comparative review would be consistent with
the statute, but that is different from concluding
that the statute requires or specifically authorizes
comparative proportionality review.
Yacob, 136 So. 3d at 561 (Canady, J., concurring in part
and dissenting in part).
The Yacob Court also relied on our pre-conformity
clause decision in Tillman v. State, 591 So. 2d 167
(Fla. 1991), which cited two provisions of the Florida
Constitution in addition to article I, section 17 as
requiring comparative proportionality review. These
provisions were the due process clause of article
I, section 9, and the provision granting this court
mandatory, exclusive jurisdiction over appeals from
final judgments of trial courts imposing the death
penalty—article V, section (3)(b)(1). See Yacob, 136
So. 3d at 547, 549 (citing Tillman's reliance on
article V, section 3(b)(1) and article I, section 9
for comparative proportionality review). However,
neither provision imposes any such requirement for the
reasons Justice Canady explained in dissenting from
this portion of Yacob:
Tillman states that the “obvious purpose” of our
mandatory jurisdiction “is to ensure the uniformity
of death-penalty law by preventing the disagreement
over controlling points of law that may arise
when the district courts of appeal are the only
appellate courts with mandatory *550 appellate
jurisdiction.” [Tillman, 591 So. 2d at 169]; see
art. V, § 3(b)(1), Fla. Const. But “preventing the
disagreement over controlling points of law” does
not require comparative proportionality review.
Furthermore, the jurisdictional provision is purely a

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

Lawrence v. State, 308 So.3d 544 (2020)

APPENDIX A 5

45 Fla. L. Weekly S277

matter of procedure; it does nothing to substantively
define the review undertaken by the court. Tillman's
reliance on this jurisdictional provision as a basis for
proportionality review is untenable.
It is no more tenable to skirt the conformity clause
by proclaiming that comparative proportionality
review is required by the due process clause rather
than by the prohibition on cruel and unusual
punishments. Under the federal Constitution,
“the Eighth Amendment's Cruel and Unusual
Punishments Clause [is] made applicable to the
States by the Due Process Clause of the Fourteenth
Amendment.” Graham [v. Florida, 560 U.S. 48,
53, 130 S.Ct. 2011, 176 L.Ed.2d 825 (2010)]. The
prohibition on cruel and unusual punishments thus
is a particular aspect of due process. And the
conformity clause expressly limits the authority of
this Court with respect to that aspect of due process.
To conclude otherwise is to treat the conformity
clause as meaningless for all practical purposes.
Yacob, 136 So. 3d at 561-62 (Canady, J., concurring in
part and dissenting in part).
The only legitimate state-law source for comparative
proportionality review was the prohibition against
cruel and unusual punishment found in article I,
section 17 of the Florida Constitution—before the
conformity clause was added to that provision in
2002. See Yacob, 136 So. 3d at 560-61 (Canady, J.,
concurring in part and dissenting in part) (summarizing
this Court's “repeated reliance on the cruel and
unusual punishments prohibition as the basis for
our proportionality review”). Post-conformity clause,
we have wrongly continued to enforce a state-law
requirement for comparative proportionality review
and have wrongly written this requirement into our
procedural rules governing the scope of our appellate
review. See Amendments to the Fla. Rules of Appellate
Procedure, 894 So. 2d 202, 204, 218-19 (Fla. 2005)
(adding a proportionality review requirement to rule
9.142 to “make the rule consistent with this Court's
practice” concerning the scope of its appellate review).
When confronted with the issue in Yacob, this Court
should have held that a judge-made comparative
proportionality review requirement violates article
I, section 17 of the Florida Constitution in light
of the Supreme Court's precedent establishing that

comparative proportionality review is not required
by the Eighth Amendment, See Pulley 465 U.S. at
50-51, 104 S.Ct. 871. We cannot judicially rewrite our
state statutes or constitution to require a comparative
proportionality review that their text does not. See art.
II, § 3, Fla. Const. Nor can we ignore our constitutional
obligation to conform our precedent respecting the
Florida Constitution's prohibition against cruel and
unusual punishment to the Supreme Court's Eighth
Amendment precedent by requiring a comparative
proportionality review that the Supreme Court has held
the Eighth Amendment does not. See art. I, § 17, Fla.
Const. Yacob wrongly did both.

Yacob Must Yield to the Florida Constitution
The State argues that we should recede from Yacob.
We recently explained “the proper approach to stare
decisis” as follows:
In a case where we are bound by a higher legal
authority—whether it be a constitutional provision,
a statute, or a decision of the Supreme Court—
our job is to apply that law correctly to the case
*551 before us. When we are convinced that a
precedent clearly conflicts with the law we are
sworn to uphold, the precedent normally must yield.
We say normally because “stare decisis means
sticking to some wrong decisions.” Kimble v. Marvel
Entertainment, LLC, 576 U.S. 446, 135 S. Ct.
2401, 2409, 192 L.Ed.2d 463 (2015). “Indeed, stare
decisis has consequence only to the extent it sustains
incorrect decisions; correct judgments have no need
for that principle to prop them up.” Id. But once
we have chosen to reassess a precedent and have
come to the conclusion that it is clearly erroneous,
the proper question becomes whether there is a valid
reason why not to recede from that precedent.
The critical consideration ordinarily will be reliance.
It is generally accepted that reliance interests are
“at their acme in cases involving property and
contract rights.” Payne v. Tennessee, 501 U.S. 808,
828, 111 S.Ct. 2597, 115 L.Ed.2d 720 (1991).
And reliance interests are lowest in cases ...
“involving procedural and evidentiary rules.” Id.;
see also Alleyne, 570 U.S. at 119, 133 S.Ct. 2151
(Sotomayor, J., concurring) (“[W]hen procedural

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

Lawrence v. State, 308 So.3d 544 (2020)

APPENDIX A 6

45 Fla. L. Weekly S277

rules are at issue that do not govern primary conduct
and do not implicate the reliance interests of private
parties, the force of stare decisis is reduced.”).
Poole, 297 So. 3d at 507.
Viewing our erroneous decision in Yacob through this
lens, we fail to find “a valid reason why not to recede
from” it. Poole, 297 So. 3d at 507. In light of the
Supreme Court's decision in Pulley, the conformity
clause expressly forecloses this Court's imposition
of a comparative proportionality review requirement
that is predicated on the Eighth Amendment. 4 The
reliance interests of death-sentenced defendants on this
Court's comparative proportionality review are low to
nonexistent, as defendants do not alter their behavior
in expectation of such review. In contrast, victims and
the State have strong interests in this Court's upholding
death sentences obtained in compliance with section
921.141.
Moreover, there is no reason to continue to apply
erroneous precedent that, though well-intentioned, 5
relies on perceived deficiencies in section 921.141
that do not exist. See Yacob, 136 So. 3d at 549
n.2. Florida's death penalty statute comports with due
process; it has been amended since Yacob to comply
with federal and state constitutional requirements
regarding death-eligibility, see *552 § 921.141(3); 6
it provides adequate safeguards against the arbitrary
and capricious imposition of the death penalty; and,
since Yacob, it has been amended to exceed what the
federal and state constitutions require by mandating (in
non-jury-waiver cases) that the jury's recommendation
for death be unanimous, see § 921.141(2)(c). 7
Accordingly, we recede from Yacob's requirement
to review death sentences for comparative
proportionality and thus eliminate comparative
proportionality review from the scope of our appellate
review set forth in rule 9.142(a)(5).

CONCLUSION
For the foregoing reasons, we decline to review
Lawrence's claim that his death sentence is
disproportionate and affirm his sentence of death. 8

It is so ordered.

CANADY, C.J., and POLSTON, LAWSON, MUÑIZ,
and COURIEL, JJ., concur.
LABARGA, J., dissents with an opinion.
GROSSHANS, J., did not participate.
LABARGA, J., dissenting.
Today, the majority takes the most consequential step
yet in dismantling the reasonable safeguards contained
within Florida's death penalty jurisprudence—a step
that eliminates a fundamental component *553 of this
Court's mandatory review in direct appeal cases.

The Majority's Recent Decisions in Context
I cannot overstate how quickly and consequentially the
majority's decisions have impacted death penalty law
in Florida. On January 23, 2020, this Court decided
State v. Poole, 297 So. 3d 487 (Fla. 2020). As I noted
in my dissent in Poole, despite the clearly defined
historical basis for requiring unanimous jury verdicts
in Florida, this Court receded from the requirement that
juries must unanimously recommend that a defendant
be sentenced to death. Poole, 297 So. 3d at 513
(Labarga, J., dissenting). After 2016, only the state
of Alabama permitted a nonunanimous (10-2) jury
recommendation. 9 Poole paved the way for Florida to
return to an absolute outlier status of being one of only
two states that does not require unanimity.
On May 14, 2020, this Court decided Bush v. State,
295 So. 3d 179 (Fla. 2020). In that case, this Court
uprooted the long applied heightened standard of
review in cases that are wholly based on circumstantial
evidence. Under the heightened standard, “[e]vidence
which furnishes nothing stronger than a suspicion,
even though it would tend to justify the suspicion that
the defendant committed the crime, it is not sufficient
to sustain [a] conviction. It is the actual exclusion of the
hypothesis of innocence which clothes circumstantial
evidence with the force of proof sufficient to convict.”
Davis v. State, 90 So. 2d 629, 631-32 (Fla. 1956).

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

Lawrence v. State, 308 So.3d 544 (2020)

APPENDIX A 7

45 Fla. L. Weekly S277

This standard, applied for more than one hundred
years, served as an important check on circumstantial
evidence cases. As I noted in my dissent in Bush, while
circumstantial evidence is a vital evidentiary tool in
meeting the State's burden of proof, “circumstantial
evidence is inherently different from direct evidence
in a manner that warrants heightened consideration
on appellate review.” Bush, 295 So. 3d at 216 (Fla.
2020) (Labarga, J., concurring in part and dissenting
in part). “The solemn duty imposed upon this Court in
reviewing death cases more than justifies the stringent
review that has historically been applied in cases based
solely on circumstantial evidence.” Id. at 217.
On May 21, 2020, this Court decided Phillips v.
State, 299 So. 3d 1013 (Fla. 2020). In Phillips,
this Court receded from Walls v. State, 213 So. 3d
340 (Fla. 2016) (holding that Hall v. Florida, 572
U.S. 701, 134 S.Ct. 1986, 188 L.Ed.2d 1007 (2014),
is to be retroactively applied). The United States
Supreme Court's decision in Hall held that Florida
law, which barred individuals with an IQ score above
70 from demonstrating that they were intellectually
disabled, “creates an unacceptable risk that persons
with intellectual disability will be executed, and thus
is unconstitutional.” Id. at 704, 134 S.Ct. 1986. The
Supreme Court concluded: “This Court agrees with
the medical experts that when a defendant's IQ test
score falls within the test's acknowledged and inherent
margin of error, the defendant must be able to present
additional evidence of intellectual disability, including
testimony regarding adaptive deficits.” Id. at 723, 134
S.Ct. 1986. In Walls, this Court held that Hall is to be
retroactively applied. The majority's recent decision in
Phillips subsequently receded from Walls.
As expressed in my dissent in Phillips, in light
of the majority's decision to recede from Walls,
“an individual with significant deficits in adaptive
functioning, and who under a holistic consideration
of the three criteria for intellectual disability could
be found intellectually disabled, is completely *554
barred from proving such because of the timing of
his legal process. This arbitrary result undermines the
prohibition of executing the intellectually disabled.”
Phillips, 299 So. 3d at 1025 (Labarga, J., dissenting).
In each of these cases, I dissented, and I lamented
the erosion of our death penalty jurisprudence. Now

today, the majority jettisons a nearly fifty-year-old
pillar of our mandatory review in direct appeal cases.
As a result, no longer is this Court required to review
death sentences for proportionality. I could not dissent
more strongly to this decision, one that severely
undermines the reliability of this Court's decisions on
direct appeal, and more broadly, Florida's death penalty
jurisprudence.

Mandatory Review in Death Cases
Until today, this Court has for decades carried out its
solemn responsibility to evaluate each death sentence
for both the sufficiency of the evidence on which
the State relied to convict the defendant, and the
proportionality of the death sentence when compared
with other cases. We have consistently explained:
“In death penalty cases, this Court conducts an
independent review of the sufficiency of the evidence.”
Caylor v. State, 78 So. 3d 482, 500 (Fla. 2011) (citing
Phillips v. State, 39 So. 3d 296, 308 (Fla. 2010)).
Whether the evidence is sufficient is judged by whether
it is competent and substantial. See Blake v. State, 972
So. 2d 839, 850 (Fla. 2007). “In conducting this review,
we view the evidence in the light most favorable to the
State to determine whether a rational trier of fact could
have found the existence of the elements of the crime
beyond a reasonable doubt.” Rodgers v. State, 948 So.
2d 655, 674 (Fla. 2006) (citing Bradley v. State, 787
So. 2d 732, 738 (Fla. 2001)).
Moreover, “[i]n capital cases, this Court compares the
circumstances presented in the appellant's case with the
circumstances of similar cases to determine whether
death is a proportionate punishment.” Caylor, 78 So.
3d at 498 (citing Wade v. State, 41 So. 3d 857, 879 (Fla.
2010)). “In deciding whether death is a proportionate
penalty, ‘we make a comprehensive analysis in order to
determine whether the crime falls within the category
of both the most aggravated and the least mitigated of
murders, thereby assuring uniformity in the application
of the sentence.’ ” Offord v. State, 959 So. 2d 187,
191 (Fla. 2007) (quoting Anderson v. State, 841 So. 2d
390, 407-08 (Fla. 2003)). “This entails ‘a qualitative
review ... of the underlying basis for each aggravator
and mitigator rather than a quantitative analysis.’ ”
Id. (quoting Urbin v. State, 714 So. 2d 411, 416 (Fla.
1998)).

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

7

Lawrence v. State, 308 So.3d 544 (2020)

APPENDIX A 8

45 Fla. L. Weekly S277

“[P]roportionality review in death cases rests at least
in part on the recognition that death is a uniquely
irrevocable penalty, requiring a more intensive level
of judicial scrutiny or process than would lesser
penalties.” Tillman v. State, 591 So. 2d 167, 169 (Fla.
1991). In fact, the sufficiency of the evidence and
the proportionality analyses are so fundamental to this
Court's direct appeal review that they are conducted
regardless of whether the defendant challenges
sufficiency and proportionality on direct appeal. See
Fla. R. App. P. 9.142(a)(5) (“On direct appeal in
death penalty cases, whether or not insufficiency of
the evidence or proportionality is an issue presented
for review, the court shall review these issues and, if
necessary, remand for the appropriate relief.”).
This Court first recognized the doctrine of
proportionality in 1973 in State v. Dixon, 283 So. 2d
1, 10 (Fla. 1973), superseded on other grounds by ch.
74-383, § 14, Laws of Fla., as stated in State v. Dene,
533 So. 2d 265, 267 (Fla. 1988), in which this Court
explained:

*555 It must be emphasized
that the procedure to be
followed by the trial judges
and juries is not a mere
counting process of X number
of aggravating circumstances
and Y number of mitigating
circumstances, but rather a
reasoned judgment as to what
factual situations require the
imposition of death and which
can be satisfied by life
imprisonment in light of the
totality of the circumstances
present. Review by this Court
guarantees that the reasons
present in one case will reach
a similar result to that reached
under similar circumstances in
another case. No longer will
one man die and another live
on the basis of race, or a
woman live and a man die
on the basis of sex. If a

defendant is sentenced to die,
this Court can review that case
in light of the other decisions
and determine whether or not
the punishment is too great.
Thus, the discretion charged in
Furman v. Georgia ... can be
controlled and channeled until
the sentencing process becomes
a matter of reasoned judgment
rather than an exercise in
discretion at all.

In the decades since Dixon, a robust body of case
law, consisting of literally hundreds of cases, has
reaffirmed this rationale and continually strengthened
the reliability of this Court's proportionality review.
While the overwhelming majority of this Court's death
penalty cases are upheld on proportionality grounds,
the fact that this Court has reversed death sentences
due to a lack of proportionality underscores the need
for proportionality review. See, e.g., McCloud v. State,
208 So. 3d 668 (Fla. 2016); Phillips v. State, 207 So.
3d 212 (Fla. 2016); Yacob v. State, 136 So. 3d 539
(Fla. 2014); Scott v. State, 66 So. 3d 923 (Fla. 2011);
Crook v. State, 908 So. 2d 350 (Fla. 2005); Williams
v. State, 707 So. 2d 683 (Fla. 1998); Jones v. State,
705 So. 2d 1364 (Fla. 1998); Voorhees v. State, 699
So. 2d 602 (Fla. 1997); Curtis v. State, 685 So. 2d
1234 (Fla. 1996); Sinclair v. State, 657 So. 2d 1138
(Fla. 1995). Yet, I emphasize that not only is the
reversal of a death sentence on proportionality grounds
a rare occurrence, when a death sentence is reversed
as disproportionate, the result is not a “get out of jail
free” card. It means that the death penalty is not a
proportionate punishment in a particular case, and that
instead, the statutory maximum punishment for firstdegree murder, a sentence of life imprisonment, is what
the law requires.
Today's decision by the majority, striking
proportionality review from this Court's mandatory
review in death penalty appeals, leaves only the
sufficiency analysis. In removing this fundamental
component of proportionality review, the majority's
decision threatens to render this Court's initial review
of death sentences an exercise in discretion.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

8

Lawrence v. State, 308 So.3d 544 (2020)

APPENDIX A 9

45 Fla. L. Weekly S277

Proportionality Review is Consistent
with the Eighth Amendment
“The concept of proportionality is central to the Eighth
Amendment.” Graham v. Florida, 560 U.S. 48, 59, 130
S.Ct. 2011, 176 L.Ed.2d 825 (2010). Contrary to the
conclusion reached by the majority, I view this Court's
lengthy history of conducting proportionality review
as entirely consistent with the Eighth Amendment as
interpreted by the United States Supreme Court, and
thus, not a violation of the conformity clause contained
in article I, section 17 of the Florida Constitution. Even
though the United States Supreme Court concluded
in Pulley v. Harris, 465 U.S. 37, 104 S.Ct. 871,
79 L.Ed.2d 29 (1984), that proportionality review
was not constitutionally mandated, the Supreme
Court acknowledged proportionality review as “an
additional safeguard against arbitrarily imposed death
sentences.” Id. at 50, 104 S.Ct. 871.
*556 Thus, I disagree with the majority's reasoning
that because the Supreme Court does not expressly
mandate proportionality review, Florida's conformity
clause forbids it. The Supreme Court recognized
proportionality review as an “additional safeguard”
against the very thing the Eighth Amendment prohibits
—arbitrarily imposed death sentences. As observed by
Justice Brennan in his dissent in Pulley:

Disproportionality
among
sentences
given
different
defendants can only be
eliminated after sentencing
disparities
are
identified.
And the most logical way
to identify such sentencing
disparities is for a court
of statewide jurisdiction to
conduct comparisons between
death sentences imposed by
different judges or juries
within
the
State.
This
is what the Court labels
comparative
proportionality
review.
Although
clearly
no panacea, such review

often serves to identify
the most extreme examples
of disproportionality among
similarly situated defendants.
At least to this extent, this
form of appellate review
serves to eliminate some of
the irrationality that currently
surrounds imposition of a death
sentence. If only to further this
limited purpose, therefore, I
believe that the Constitution's
prohibition on the irrational
imposition of the death penalty
requires that this procedural
safeguard be provided.

Pulley, 465 U.S. at 70-71, 104 S.Ct. 871 (Brennan, J.,
dissenting) (citation omitted).
The United States Supreme Court's acknowledgment
of proportionality as an additional safeguard—
combined with the fact that the Supreme Court has
not held proportionality review unconstitutional—
affirms that in this case, the majority could well have
concluded that proportionality does not run afoul of the
conformity clause. Instead, yet again placing Florida
outside of the majority of death penalty states, the
majority has chosen to construe the United States
Supreme Court's reasoning as prohibiting Florida's
decades old proportionality review. I could not
disagree more.

Proportionality Review in Other States
Further supporting my conclusion that the majority's
decision is a highly unfortunate departure from
settled law is the fact that proportionality review
is conducted in a majority of other death penalty
states. Twenty-five states currently impose the death
penalty. 10 Sixty percent of those twenty-five states,
not including Florida, conduct a proportionality
review. In fourteen of those states, the review is
statutorily imposed: Alabama, Georgia, Kentucky,
Louisiana, Mississippi, Missouri, Montana, Nebraska,

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

9

Lawrence v. State, 308 So.3d 544 (2020)

APPENDIX A 10

45 Fla. L. Weekly S277

North Carolina, Ohio, South Carolina, South Dakota,
Tennessee, and Virginia.

11

*557 Similar to Florida (prior to today's decision),
appellate review of death sentences in Utah involves
a proportionality review despite the lack of a statutory
requirement. State v. Honie, 57 P.3d 977, 988
(Utah 2002) (“Despite the fact that proportionality
review is not required, either by the Utah or federal
constitutions or by statute, we have chosen to assume
the responsibility of reviewing death sentences for
disproportionality.”); State v. Wood, 648 P.2d 71,
77 (Utah 1982) (“In the penalty phase, it is our
duty to determine whether the sentence of death
resulted from error, prejudice or arbitrariness, or was
disproportionate.”); see also State v. Maestas, 299 P.3d
892, 987 (Utah 2012); State v. Andrews, 574 P.2d 709,
710-11 (Utah 1977); State v. Pierre, 572 P.2d 1338,
1345 (Utah 1977).
The Utah Supreme Court has emphasized that a
proportionality review “means that this Court will
not allow sentencing authorities to impose the death
penalty in an invidious fashion against particular types
of persons or groups of persons or in a fashion
disproportionate to the culpability in a particular
case ... that over time, as this Court becomes aware
of a general pattern in the imposition of the death
penalty in this state, the Court may set aside death
sentences that fall outside the general pattern and thus
reflect an anomaly in the imposition of the death
penalty.” State v. Holland, 777 P.2d 1019, 1025-26
(Utah 1989). The court stated that this review function
“substantially eliminates the possibility that a person
will be sentenced to die by the action of an aberrant
jury.” State v. Pierre, 572 P.2d 1338, 1345 (Utah 1977)
(quoting Gregg v. Georgia, 428 U.S. 153, 206, 96 S.Ct.
2909, 49 L.Ed.2d 859 (1976)).
Even in states that statutorily mandate proportionality
review, several state supreme courts have emphasized
its importance. The Supreme Court of Virginia
explained: “The purpose of our comparative
[proportionality] review is to reach a reasoned
judgment regarding what cases justify the imposition
of the death penalty. We cannot insure complete
symmetry among all death penalty cases, but our
review does enable us to identify and invalidate a
death sentence that is ‘excessive or disproportionate

to the penalty imposed in similar cases.’ ” Orbe v.
Commonwealth, 258 Va. 390, 519 S.E.2d 808, 817
(1999) (quoting Va. Code Ann. § 17.1-313(C)(2));
see also Lawlor v. Commonwealth, 285 Va. 187, 738
S.E.2d 847, 894-95 (2013).
Similarly, the Tennessee Supreme Court has
recognized that “the purposes of comparative
proportionality review are to eliminate the possibility
that a person will be *558 sentenced to death by the
action of an aberrant jury and to guard against the
capricious or random imposition of the death penalty,”
and that “comparative review of capital cases insures
rationality and consistency in the imposition of the
death penalty.” State v. Bland, 958 S.W.2d 651, 665
(Tenn. 1997) (citing State v. Barber, 753 S.W.2d 659,
665-66 (Tenn. 1988)); see also State v. White, 355
N.C. 696, 565 S.E.2d 55, 68 (2002) (recognizing that
“[p]roportionality review also acts ‘[a]s a check against
the capricious or random imposition of the death
penalty.’ ” (quoting State v. Barfield, 298 N.C. 306, 259
S.E.2d 510, 544 (1979))); State v. Ramsey, 864 S.W.2d
320, 328 (Mo. 1993) (stating that proportionality
review “is designed by the legislature as an additional
safeguard against arbitrary and capricious sentencing
and to promote evenhanded, rational and consistent
imposition of death sentences.”); State v. Kyles, 513
So. 2d 265, 276 (La. 1987) (stating that although
not constitutionally required, the court “conducts a
proportionality review as a further safeguard against
arbitrariness”).
Without proportionality review, each death sentence
stands on its own. Failing to consider a death sentence
in the context of other death penalty cases impairs
the reliability of this Court's decision affirming that
sentence.

Conclusion
In line with a vision consistent with evolving standards
of decency, as envisioned by the United States
Supreme Court in Trop v. Dulles, 356 U.S. 86, 101,
78 S.Ct. 590, 2 L.Ed.2d 630 (1958), our state's
jurisprudence has in many instances provided its
citizenry with greater rights and protections than the
minimum required by the United States Supreme
Court, the federal government, and other states. In

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

10

Lawrence v. State, 308 So.3d 544 (2020)

APPENDIX A 11

45 Fla. L. Weekly S277

this instance, our state has consistently done just that,
by requiring a proportionality review in every death
penalty case, thus providing “an additional safeguard
against arbitrarily imposed death sentences.” Pulley,
465 U.S. at 50, 104 S.Ct. 871. As noted earlier, sixty
percent of the twenty-five states that currently impose
the death penalty require a proportionality review.
Sadly, this long-standing jurisprudential approach has
been significantly, if not completely, repudiated by this

Court's various opinions, beginning with its decision in
Poole, followed by Bush and Phillips, and continuing
with today's decision to discontinue conducting a
proportionality analysis in each death penalty appeal.
I deeply, regretfully, and most respectfully dissent.
All Citations
308 So.3d 544, 45 Fla. L. Weekly S277

Footnotes
1
2

3

4

5

Spencer v. State, 615 So. 2d 688 (Fla. 1993).
The trial court found that the State had proven two statutory aggravating circumstances beyond
a reasonable doubt and assigned both of them great weight: (1) the defendant was previously
convicted of another capital felony or of a felony involving the use or threat of violence to the
person; and (2) the murder was committed in a cold, calculated, and premeditated manner.
The trial court found and assigned moderate weight to two statutory mitigating circumstances:
(1) the capital felony was committed while Lawrence was under the influence of extreme mental
or emotional disturbance; and (2) the capacity of Lawrence to appreciate the criminality of his
conduct or to conform his conduct to the requirements of law was substantially impaired.
The trial court also found four nonstatutory mitigating circumstances to which it assigned the
noted weight: (1) the defendant told the probation officer that he is mainly guilty and feels like
he deserves to die (slight weight); (2) the defendant was raised in an abusive and dysfunctional
home (slight weight); (3) the defendant cooperated with the police in locating the scene of the
crime and the body (slight weight); and (4) the defendant's history of mental health problems that
do not rise to the level of statutory mitigation (moderate weight).
We note, however, that Florida's conformity clause does not preclude the Legislature from
requiring comparative proportionality review of death sentences by statute. Although the State
argued to the contrary in its brief, at oral argument, the State appeared to concede the point
that our conformity clause is not so broadly worded as to preclude a statutory requirement for
comparative proportionality review. Indeed, other state legislatures have mandated comparative
proportionality review by statute. See, e.g., State v. Wood, 580 S.W.3d 566, 590 (Mo. 2019)
(explaining that section 565.035.3., Mo. Rev. Stat., “imposes an independent duty on [the
Supreme Court of Missouri] to undertake a proportionality review to determine,” among other
things, “(3) [w]hether the sentence of death is excessive or disproportionate to the penalty
imposed in similar cases, considering both the crime, the strength of the evidence and the
defendant”). We express no opinion as to whether the Florida Legislature should adopt such a
requirement; we simply note that the State is incorrect to the extent it contends that the Florida
Legislature could not do so.
We recognize our valued colleague's dissent and its argument that reviewing death sentences for
comparative proportionality would be good policy. Even were we to agree with the dissent's policy
analysis, however, we would still be sworn to follow our constitution—which does not permit the
result for which the dissent argues.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

11

Lawrence v. State, 308 So.3d 544 (2020)
45 Fla. L. Weekly S277

6

7

8

9
10

11

APPENDIX A 12

See also McKinney v. Arizona, ––– U.S. ––––, 140 S. Ct. 702, 707, 206 L.Ed.2d 69 (2020) (“Under
Ring [v. Arizona, 536 U.S. 584, 122 S.Ct. 2428, 153 L.Ed.2d 556 (2002),] and Hurst [v. Florida, 577
U.S. 92, 136 S. Ct. 616, 193 L.Ed.2d 504 (2016)], a jury must find the aggravating circumstance
that makes the defendant death eligible. But importantly, in a capital sentencing proceeding, just
as in an ordinary sentencing proceeding, a jury (as opposed to a judge) is not constitutionally
required to weigh the aggravating and mitigating circumstances or to make the ultimate decision
within the relevant sentencing range.”); Poole, 297 So. 3d at 507 (“reced[ing] from Hurst v. State
except to the extent it requires a jury unanimously to find the existence of a statutory aggravating
circumstance beyond a reasonable doubt”).
See also Poole, 297 So. 3d at 504 (“[T]he Sixth Amendment, as interpreted in Spaziano [v.
Florida, 468 U.S. 447, 465, 104 S.Ct. 3154, 82 L.Ed.2d 340 (1984)], does not require any jury
recommendation of death, much less a unanimous one. ... [W]e further erred in Hurst v. State
when we held that the Eighth Amendment requires a unanimous recommendation of death. The
Supreme Court rejected that exact argument in Spaziano.”); id. at 505 (holding that Hurst v. State
erred in concluding that a unanimous jury recommendation is required by article I, section 22
of the Florida Constitution governing the right to a jury trial, and further holding that “our state
constitution's prohibition on cruel and unusual punishment, article I, section 17, does not require
a unanimous recommendation—or any jury recommendation—before a death sentence can be
imposed” (footnote omitted)).
We note that, in addition to challenging the proportionality of his death sentence, Lawrence raises
the meritless claim that the trial court fundamentally erred in sentencing him to death because
it did not determine beyond a reasonable doubt the sufficiency of the aggravating factors and
whether they outweighed the mitigating circumstances. We have repeatedly rejected this claim in
cases where the defendant did not waive the right to a penalty-phase jury. See Newberry v. State,
288 So. 3d 1040, 1047 (Fla. 2019) (rejecting fundamental-error claim because the sufficiency and
weighing determinations “are not subject to the beyond a reasonable doubt standard of proof”)
(citing Rogers, 285 So. 3d at 886). The same fundamental-error claim is equally meritless in this
case, where Lawrence waived the right to a penalty-phase jury. See § 921.141(3)(b), Fla. Stat.
(2018) (subjecting only the trial court's finding of the existence of at least one aggravating factor
to the beyond a reasonable doubt standard of proof); see also supra note 6.
Ala. Code § 13A-5-46(f) (2020).
The list of death penalty states, which does not include three states with a gubernatorial
moratorium (California, Oregon, and Pennsylvania), is as follows: Alabama, Arizona, Arkansas,
Florida, Georgia, Idaho, Indiana, Kansas, Kentucky, Louisiana, Mississippi, Missouri, Montana,
Nebraska, Nevada, North Carolina, Ohio, Oklahoma, South Carolina, South Dakota, Tennessee,
Texas, Utah, Virginia, and Wyoming. See Death Penalty Information Center, State by State,
https://deathpenaltyinfo.org/state-and-federal-info/state-by-state (last visited May 20, 2020).
Ala. Code § 13A-5-53(b)(3) (2020); Petric v. State, 157 So. 3d 176, 250 (Ala. Crim. App. 2013);
Ga. Code Ann. § 17-10-35(c)(3) (West 2020); Willis v. State, 304 Ga. 686, 820 S.E.2d 640, 650
(2018); Ky. Rev. Stat. Ann. § 532.075(3)(c) (West 2020); White v. Commonwealth, 544 S.W.3d
125, 155 (Ky. 2018), ––– U.S. ––––, 139 S. Ct. 532, 202 L.Ed.2d 643 (2019), abrogated by
Woodall v. Commonwealth, 563 S.W.3d 1 (Ky. 2018); La. Code Crim. Proc. Ann. art. 905.9 (2019);
La. Sup. Ct. Gen. Admin. R. XXVIII § 1(c); State v. Burrell, 561 So. 2d 692, 711 (La. 1990); State
v. Kyles, 513 So. 2d 265, 276 (La. 1987); Miss. Code Ann. § 99-19-105(3)(c) (2020); Ambrose
v. State, 254 So. 3d 77, 151 (Miss. 2018), cert. denied, ––– U.S. ––––, 139 S. Ct. 1379, 203
L.Ed.2d 615 (2019); Mo. Rev. Stat. § 565.035.3(3) (2019); State v. Collings, 450 S.W.3d 741,
767 (Mo. 2014); State v. Deck, 303 S.W.3d 527, 550 (Mo. 2010); Mont. Code Ann. § 46-18-310
(2019); State v. Smith, 280 Mont. 158, 931 P.2d 1272, 1283-84 (1996); Neb. Rev. Stat. Ann. §§
29-2521.01-29-2521.04 (West 2020); State v. Schroeder, 305 Neb. 527, 941 N.W.2d 445, 470

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

12

Lawrence v. State, 308 So.3d 544 (2020)

APPENDIX A 13

45 Fla. L. Weekly S277

(2020); N.C. Gen. Stat. § 15A-2000(d)(2) (West 2019); State v. McNeill, 371 N.C. 198, 813 S.E.2d
797, 838-39 (2018), cert. denied, ––– U.S. ––––, 139 S. Ct. 1292, 203 L.Ed.2d 417 (2019); Ohio
Rev. Code Ann. § 2929.05(A) (West 2020); State v. Myers, 154 Ohio St.3d 405, 114 N.E.3d 1138,
1185 (2018), cert. denied, ––– U.S. ––––, 139 S. Ct. 822, 202 L.Ed.2d 599 (2019); S.C. Code Ann.
§ 16-3-25(C)(3) (2020); State v. Inman, 395 S.C. 539, 720 S.E.2d 31, 46 (2011); S.D. Codified
Laws § 23A-27A-12(3) (2020); State v. Piper, 842 N.W.2d 338, 347-48 (S.D. 2014); Tenn. Code
Ann. § 39-13-206(c)(1)(D) (West 2020); State v. Jones, 568 S.W.3d 101, 141 (Tenn. 2019), cert.
denied, ––– U.S. ––––, 140 S. Ct. 262, 205 L.Ed.2d 144 (2019); Va. Code Ann. § 17.1-313(C)
(2), (E) (West 2020); Lawlor v. Commonwealth, 285 Va. 187, 738 S.E.2d 847, 894-95 (2013).

End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

13

Lawrence v. State, --- So.3d ---- (2020)

APPENDIX B 1

46 Fla. L. Weekly S1

2020 WL 7778180
Supreme Court of Florida.
Jonathan Huey LAWRENCE, Appellant(s)
v.
STATE of Florida, Appellee(s)
CASE NO.: SC18-2061
|
DECEMBER 31, 2020
Lower Tribunal No(s).: 571998CF000270XXAXMX
Opinion
*1 Appellant's Motion for Rehearing is hereby
denied.

LABARGA, J., concurs with an opinion.
GROSSHANS, J., did not participate.
LABARGA, J., concurring.
I agree that Lawrence has not established a basis for
rehearing, and consequently, I have voted to deny
rehearing. However, I firmly adhere to my dissent
in Lawrence v. State, ––– So.3d ––––, 45 Fla. L.
Weekly S277 (Fla. Oct. 29, 2020), and my belief
that proportionality review is an essential part of this
Court's review of death penalty cases on direct appeal.
All Citations
--- So.3d ----, 2020 WL 7778180 (Mem), 46 Fla. L.
Weekly S1

CANADY, C.J., and POLSTON, LABARGA,
LAWSON, MUÑIZ, and COURIEL, JJ., concur.
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

